Supreme Court, U.S
FILED

No.

JUN 0 2 2021
|

OFFICE OF THE Cl FRkr

IN THE
SUPREME COURT OF THE UNITED STATES

JACOB CHRISTO®

— PETITIONER

(Your Name)
vs.
SUPERINTENDENT OF SCI AIEICN

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

_______ UNTIED STATES COURT OF APPEALS FDR THE THIRD CIRCUIT

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Jacob Christine (HQ-1431)

(Your Name)
SQCGREENE 175 Progress Dr.

(Address)
Waynesburg, PA 15370

(City, State, Zip Code)

(Phone Number)

questions msmm
Certiorari is sought re the erroneous denial of a C.O.A. or Reergument in the 3rd Cir. Ct.
of Appeals, perhaps most notable among the questions presented, is if this court’s ruling in
Cullen v. Pinholster, 563 U.S. 170, 181 (2011), bars a rehearing re Brady material that was.
unavailable in the St. Ct. where-the ABA Pled the 5th, and access to the ADA file was denied,
because Janes v. Bagley, 696 F.3d 475 (6th Cir. 2012) ftnote 4, ref. at 486, states Brady is an
exceptiorr-to "Pinholster,” but other huge questions of significant public importance that are
as of yet unprecedented have also been presented:
1) REGARDING WHEN A C.O.A. IS 10 BE ISSUED, HAVE THIS OOURT'S HOLDINGS IN Barefoot v. Estelle,
463 U.S. 880 (1983), AND Miller v. Coekerll, 537 U.S. 332 (2003) BEEN OVERRULED, OR HAS THE U.S.
COURT OF APEALS JO? THE 3rd Or. ERRED IN FAILING 10 ISSUE A C.O.A. OR KEARGUMENT IN THE INSTANT
MATTER?
2) ARE PCRA’s FILED BY THE DECLARANT AND COUNSEL, AND TESTOENY FRCM HIS COUNSEL REVEALING A
BRADY VIOLATION AND TRIAL PERJURY, A HEARSAY EXCEFITCN WHEN THE DECLARANT IS UNAVAILABLE?
WHEN THE ADA PLEATS THE 5th IN RESPONSE TO THE A0SUSATICN OF A BRADY VIOAUCN, DOES IT
HAVE ANY EVIDENTIARY VAT I IE .AS AN AIKISSICN IN THE CIVIL SETTING OF A PCRA HEARING?
WHEN THE PCRA DECLARANT SUBSEQUENTLY BECOMES AVAILABLE AND ISSUES AFFIDAVITS AEMOTING THE
BRADY VIOLAllCN, IS A REHEARING BARRED BY "PINHOLSTER," 563 U.S. 170 (2011), WHEN ACCESS TO THE
ADA FILE WAS DENIED AT FIRST HEARING, AND "BflGET,” C96 F.3d 475 (6th Cir. 2012) footnote 4, ref.
at 486, STATES BRADY MATERIAL IS A BRIQG LINE EXCEFITCN TO "PM2SIER."
3) WHERE THE JURY RETURNED FRCM MJBERA31CNS REQUESTING THE SELF-DEFENSE INSMJCIICN BE
REPEATED AND WEREiERRCNEDUSLY INSTRUCTED DEFENDANT HAD A DUIY TO RETREAT FROM HIS * ’TWELLING,"
: THE DEFENDANTS DUE PROCESS RIGGS VIOLATED WHERE THE DIST. DISPOSED OF THE CLAIM
BY ADOPTING A MISREPRESENTATION BY THE ST. CT. THE DUIY WAS NOT EXCUSED FRCM A "IWELLING" UNEER
THE STATUE AT THE TIME OF TRIAL, WEN IT WAS (5th and 14th Amendment U.S. Const. Due process),
AND DOES A PRISONER HAVE A RIGG TO STAND HIS GROUND IN HIS ASSIGNED CELL?
4) WHERE THE JURY RETURNED FRCM DELIBERATIONS REQUESTING THE SELF-DEFENSE INSIKUCTICN BE
REPEATED AND WERE ERRONEOUSLY INSTRUCTED IF THE DEFENDANT AOdDENTALLY" INJURED THE VICTIM IN
SE1FDEFENSE, HE "CCMHTIED THE CRIME" AND THE JURY "NEED NOT CONSIDER JUSITFICAITCN,"
KID THIS MISINSIRUCTLCN INFECT THE ENURE TRIAL WITH UNFAIRNESS WHERE UNEER STATE LAW,
SELF-DEFENSE AND AG3EDENIAL INJURY ARE NOT MUTUALLY EXCLUSIVE UNEER Childs, 142 A.3d 823 (2016),
AND WAS IT OONSmUIICNAL EO? THE DISTRICT TO CLAIM THIS MAY HAVE BEEN A "SCRIVNER ERROR"?
5) IS PROCEDURALLY DEFAULTING A DEFENDANT FOR FAILURE TO RELTITGATE A FULLY EXHAUSTED
DIRECT APPEAL CLAIM CN PCRA UNDER THE ALTERNATIVE LEGAL THEORY OR ALLEGATION CN AN "EX-FCSTFACIO" VKLATKN OCNSTTIUIILCm.WHEN THE STATE ECRA ACT EXPRESSLY FCREH6 SAID RELmGAIICN
UNDER 42 Pa. C.S. § 9544(a)(2), see Collins, 888 A.2d 564 (2005) Headnote 3, and 586 Pa. 56,
AND, IS THE DIST. PERMITTED TO LEAVE CLAIFB AND DISPUTED MATTER UNADDRESSED?

LIST OF PARTIES

\/\ All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TAKE CF (XNKNIS
CPMECNS BEKW
JURISDICTION

2

OCNSmunCNAL AND STATUICRY PROVISIONS INVOLVED..

3

STATEMENT OF HE CASE
REASONS FOR GRANTING THE WRIT

12

I. ISSUE A) (RE QDESI1CN.:#1)
HAS THE THIRD OR. CT. OF APPEALS ERRED IN FAILING TO ISSUE A C.O.A. OR REARGUMENT
IN THE INSTANT MAHER WHERE THE PETITIONER PRESENTED A BRADY VKIAHCN, TWO JURY INSTRUCTION ERRORS, AND AN EX-DC6T-FACIU VIOLATION, MET ALL CRITERIA FOR IS&MCE OF C.O.A.
AND EVEN RAI®D NUMEROUS UNANSWERED QJESnCNS OF EXCEPUCNAL IMPORTANCE WUHXJT PRECEDENT _

12

(i) GROUND.CNE (RE QUESTIONS #2)
A VIOLATION OF ffiADY WHERE THE ADA AND OGMtNWELATH WITNESS TESTIFIED NO DEAL v
WAS OFFERED IN EXCHAN®: HR HIS TESITMNY AT TRIAL, BUT AFTER, HE FILED TWU"FCRA'rs; CNE
AMENDED BY.HIS COUNSEL, CONFESSING THERE WAS A PRE-TRIAL TEAL TO REDUCE HIS BANK ROB­
BERY SENTENCE; AS A RESULT HE SENTENCE WAS MUCH) BY TWO YRS.—I FILED A BORA, AT THE
HEARING THE ADA PLED THE 5th, AOESS TO ADA FOE WAS ISNIED, DECLARANT WAS UNAVAILABLE,
BUT HIS COUNSEL TESTIFIED THERE WAS A PRE-TRIAL SECRET TEAL—RELIEF WAS DENIED;DEOARANT
LATER BECAME AVAILABLE AND ISSUED AFFIDAVITS ATMTITTNG PRE-TRIAL SECRET DEAL, EOT A HEAR­
ING WAS DENIED, DIST. CUED ,rPINKISIERn AS BARRING A REHEARING DESPITE 6th CIRCUIT CASE
"EAGLET HOLDING BRADY IS EXCEPTION; APPEALS COURT FAILED TO ISSUE C.O.A. OR REARGUMENT __

13

(ii) GRDUNDTW) (RE QUESTION #3)
TRIAL COUNSEL WAS INEFFECTIVE FUR FAILING 10 OBJECT ID OR CORRECT ERRONEOUS JURY
INSTRUCTION No. ONE, WHERE AFTER THE JURY RETURNED FRCM DELIBERATION REQUESTING THE SELF-­
DEFENSE INSIRUCIICN EE REPEATED, THEY WERE TOLD A THIRD TIME I HAD A DUTY TO REIREATlFRCM.-.
AN ARMED TRESPASSING ATTACKER IN MY CNN imilNG-LOWER COURTS ERRED IN ADOPTING A MISREP­
RESENTATION BY THE ST. CT. THAT THE SELF-DEFENSE SIAIUIE DON'T EXCLUDE A DUTY TO RETREAT
FRCM ONE’S "DWEUING" AT THE TIME OF MY TRIAL, WHEN IT DID, AND TRIAL COURT FAILED TO EX­
CLUDE SAID DUTY MY ASSIGNED JAIL CELL; THE 3rd Cir. a. OF APPEALS FATTED TO ISSUE C.O.A. „

20

(iii) GROUND THREE (RE QUESTIONS #4)
WHERE I TESITFIED THAT I INJURED THE VICTIM ACCIDENTALLY WHITE DEFENDING MYSELF AND
AND THE JURY RETURNED FRCM DELIBERATIONS REQUESTING THE SELF-DEEFNSE INSIRUCIICN EE RE­
PEALED, MY TRIAL COUNSEL WAS INEFFECTIVE EUR FAILING TO CORRECT THE EERNEOE INSTRUCTION
THAT IF THE JURY BELIEVED THAT I AOOEDENIALLY INJURED THE VICTIM IN SELF-DEFENSE, THAN,
’THERE WAS NO JUSTIFICATION ETHER, BECAUSE THE DEHNDHJT aJWTITED THE CRIME,” AND THE
LOWER CT; ERRED IN HOLDING THIS MASSIVE ERROR DID NOT INFECT THE ENTIRE TRIAL AND ALLEGE
ING TT MAY HAVE BEEN A "SCRIVNER ERROR."_________________________________

24

i

EX-TOST-FACIO AND 14th AMENEMENT VIOLATION VHERE PA SUPREME CT. OVERRULED PREC­
EDENT CASE AND AIMED THE RULES OF EVIDENCE IN VIOLATION OF THE UtS. CONST. AND APPLIED
THE CAHNGE EX-PC6T-FACI0 DENYING ME A NEW TRIAL UNDER THE ORIGINAL RULE ALLOWING THE
VICTIM'S PRIOR ASSAULT CHARGE TO AIMTIED AT TRIAL, BUT THEY CHANGED THE RULE AFIERWARD;
CHIEF JUSHCE ISSUED SCALDING DISSENT-DIST. ERRED BY PROCEDURALL DEFAULTING CLAIM FOR
FAILURE TO REUHGATE CM ST. PCRA DESPITE 42 Pa. C.S. S 9544(a)(2) and PA SUPREME CT.
PRECEDENT Collins, 888 A.2d 564 (2005) Headnote 8, EXPRESSLY PROHBTIING SAID CONEOOT
AND THIRD OR. APPEALS CT. FAILED TO ISSUE C.O.A. ________________________________

26

CDNLU5IQN

--------- 28

EXHIBITS WIIH INDEX

(Attached)

APPENDIX WITH INDEX,__

(Attached)

li

TNTFX 10 EXHIBITS

F.xh. A- 4/8/11 FCRA filed by Brady witness DAN RICE admitting pre-trial for
for sentence reduction (in State Ct. Record at 122)____________

Page #
1

Exh. B-6/9/11 Amended PCRA filed by Brady witness DAN RICE's counsel CDR03RAN
confirming pre-trial deal (State Ct. Rec. # 123).___________________

- 10

Exh. C- 9/30/11 N.T. Brady witness DAN RICE's re-sentencing hearing after filing
2 PCRA confessing Brady violation secret deal (St. Ct. Rec. #121)..____

16

Exh. D- 4/12/10, DAN RICE original statement or investigator STAHR before Brady
violation deal, admitting my assailant mitered my cell and was not
pilled inside (in Dist. EOF. at # 1, Exh. J therein)._____________

28

Exh. E- 4/12/18 P.I. Report and sworn affidavit frcm Brady witness DAN RICE
confirming there was a Brady violation where ADA agreed, pre-trial,
to cut LAN's sentence on his BAnk Robbery for altering his testimony,
(Dist. ECF # 21, 22, & 23)________ !-------------------------------------

30

Exh. F- 8/28/18 P.I. Report and sworn affidavit from DAN RICE, recanting his
trial testimony and admitting it was false (Dist. ECF # 21, 22, & 23)

33

Exh. G- 9/15/18 P.I. Report and sworn affidavit frcm DAN RICE recanting his
trial testimony and admitting I was defending myself, (Dist. ECF # 21, 22, & 23).

36

Exh.. H- True and correct copy of Pa. Standard Jury instruction 9.501, 2005 Ed.
latest Ed. prior to my 2010 trial, before 2011 Amendment, including
term "dwelling" and excluding a duty therein ("castle doctrine"),
(retreat duty exclusion was already in the instruction before the amendment)
(in Dist. ECF # 17 & 25)_______________________________________

39

Exh. I- 18 Pa. C.S. § 505 Self-defense Statute, 1972 Ed., latest prior to my
trial excluding a duty to retreat frcm one's "dwelling" prior to the
2011 Amendment, (Dist. ECF #17 & 25)__________________________

47

Exh. J- 18 Pa. C.S. § 501 Codified definition "dwelling" frcm 1972 as "ANY
building or structure which for the time being is actor's heme OR
place of lodging," (Fed. Dist. ECF # 29)______________________

.51

Exh. K- 18 Pa. C.S. S 505 Self-defense Statute, post 2011 Amendment, adding
colyj^stand your ground rule," excluding a duty to retreat OUISDE of
one's "Dwelling," but exclusion INSIDE one's "dwelling" was already
there—see Amendment notes on last pg. (Dist. ECF # 34)___________

55

iii

.

index to arpnekes

APfPNDIX A- U.S. COURT OF APPEALS FOR THE 3rd Or.: CASE # 20-2250:
3/29/21 DENIAL OF PEXTI1CN FOR PANEL OR ENC BANC REHEARING...

1

APPENDIX B- U.S COURT OF APPEALS FOR THE 3rd OR.: CASE # 20-2250:
1/8/21 DENIAL OF REQUEST FOR ISSUANCE OF C.O.A_____

3

APPENDIX C- U.S. DISTRICT COURT FOR EASTERN DISTRICT, CASE # 18-237:
3/19/21 DENIAL OF RULE 59(e) fCJITCN_________________

5

APPENDIX D- U.S. DISTRICT COURT FOR EASIERN DISTRICT, CASE # 18-237:
7/15/21 AKFITCN OF R&R ___________________________

11

APPENDIX E- U.S. DISTRICT COURT FOR EASTERN DISIRICT, CASE # 18-237:
MAGISTRATE REPORT AND RECOMMENDATION. i(R&R)____

18

APPENDIX F- PENNSYLVANIA SUPERIOR COURT, CASE 3555 EDA 2018:
DENIAL OF APPEAL OF DISMISSAL OF CONSECUTIVE PCRA HEARING WITHOUT HEARING..

53

ALPENDIX G- NORTHAMPTON COUNTY COURT OF CM PLEAS, CASE # 33A4-cr-2009:
ORDER DISMISSING THIRD PCRA--------------------------------------------

63

APPENDIX H- NORIHAMPICN COUNTY COURT OF CXXflCN PLEASE CASE # 3344-CR-2009;
ORTER DISMISSING SECOND PCRA------------------------------------------

87

APPENDIX I- PENNSYLVANIA SUPERIOR COURT, CASE # 337 EDA 2017:
DENIAL OF APPEAL OF DENIALVOE FIRST PCRA_____

107

APPENDIX J- NORIHAMPICN COUNTY COURT OF CM PLEAS, CASE # 33W-cr-2009:
12/30/16 ORDER DENYING FIRST PCRA________________________

129

APPENDIX K- PA SUPREME CT, CASE # 8 MAP 2014:
DENIAL OF APPLICATION FOR REARGUMENT OF ENC BANC REARGUMENT

153

APPENDIX L- PA SUPREME CT, CASE # 8 MAP 2014:
AFFIRMANCE OF LOWER COURT DECISION DENYING NEW TRIAL

155

APPENDIX M- SUPERIOR COURT OF PENNSYLVANIA, CASE # 1893 EDA 2011:
CRIER AFFIRMING TRIAL COURT OREER CN ENC BANC REARGUMENT

176

APPENDIX N- SUPERIOR COURT: OE,EENNSYLVANIA,IGASE # 1893 EDA 2011:
ORTER VACATING TRIAL COURT CRIER AND GRANTING NEW TRIAL

212

APHfflUX Q- NORIHAMPICN COUNTY COURT OF COPtN PLEA, CASE # 3344*®-2009:
ORDER DENYING POST SENTENCE MOTION FOR NEW TRIAL ---------------

226

iv

APPENDIX P- 18 Pa. C.S. § 505 (Ccniplete)(2009 Ed.)__________

241

APPENDIX Q- 42 Pa. C.S. S 5552 (Complete)__________________

244

APPENDIX R- Pa. Standard Suggested Jury Inst. 9.501 (Complete)

251

APPENDIX S- PA R. Evid. 405 (Complete)

258

APPENDIX T- PA R. Evid. 609 (Complete)

260

APPENDIX U- PA R. Evid. 804 (Complete)

262

v

TAKfF. CF AmHCRTTTFS

CASES:
* U.S. SUPREME OOURT CASES
Barefoot v. Estelle, 463 U.S. 880, 893 (1983),

12

Brady v. Maryland, 373 U.S. 83 (1963)---------

16

Calder v. Bell, 1 L.Ed 648, 3 BALL 386 (1795)

27

Carmell v. Texas, 521 U.S. 513 (2000) ______

27

Cullen v. Pinholster, 563 U.S. 170, 181 (2011)

12, 15, 16

Lombard v. Louisiana, 373 U.S. 267 (1963)__ „

22
12, 19, 23, 25, 28

Miller-el v. CodkerllV 537 U.S. 322 (2003)
Napue v. Illinois, 360 U.S. 264 (1974)______

16

Slack v. Daniel, 529 U.S. 473, 483-484 (2000)

12
21, 25

Strickland v. Washington, 466 U.S. 668 (1984)_

* U.S. OOURT OF APPEALS ClRCUir OOURT CASES
Berrier v. Egeler, 583 F.2d 515, 518 (6th Sir. 1978)

21

Breakiron v. Horn, 642 F.3d 126 (11th Cir. 1998)____________

25

Clisby v. Jones, 960 F.2d 925 (11th Cir. 1998)_____________

28

Davis v. Strack, 270 F.3d 111 (2nd Cir. 2001)______________

21

Dennis v. Secretary of Corrections, 834 F.3d 263 (3rd Cir. 2016)

16

Jones v. Bagley, 696 F.3d 475 (6th Cir. 2012)____

12, 16, 19

Neu v. Grant, 548 F.2d 281 (10th Cir. 1977)_____

25

Real v. Shannon, 600 F.3d 302, 309 (3rd Or. 2010)

21, 24, 25

U.S. v. Lafferty, 503 F.3d 293 (3rd Cir. 2007)__

15

U.S. v. Sassak, 881 F.2d 276 (6th Cir. 1989)____

24

vi

U.S. Watson, 552 Fed. Appx. 480 (6th Or. 2012)(14a0038n.06)(12-2218)

15

* PENNSYVANIA SUPREME COURT CASES
Can. v. Allshouse, 36 A.3d 163 (2012)

27

Can. v. Childs, 142 A.2d 823 (2016)

23

Can. v. Christine, 129 A.3d 394 (2015)

26

26, 27

Can. v. Collins, 888 A.2d 564 (2005)

Can. v. Haag, 809 A.2d 564 (2001)

15

Con. v. Hoover, 107 A.3d 723 (2013)

28

Can. v. Mjuzan, 53 A.3d 738 (2012) ^

28

* PENNSYLVANIA SUPERIOR CHJRT CASES
Can. v. Beck, 402 A.2d 1371 (1979)

26

Can. v. Busks, 655 A.2d 576 (1994)

24

Can. v. McFadden, 587 A.2d 740 (1991)

24

Con. v. O'Kicki, 597 A.2d 152 (1991)

15

Con. v. Statum, 769 A.2d 476 (2001)

14

Franpovicz v. W.C.A.B. (Palsgrove), 642 A.2d 638 (1994) ±

15

SIA3UQS AND RULFS
UNTIED STATES OONSTITUTTCN
5th Amendment U.S. Const.

18, 19, 25, 27, 28

6th Amendment U.S. Const.

22, 25, 27, 28

14th Amendment U.S. Const.

22, 25, 27, 28

FEDERAL SMUIES
12

28 U.S.C. § 2254 (c)(1)
PENNSYLVANIA AUffiCRIITES
18 Pa. C.S. § 302(a)„

23

18 Pa. C.S. § 501

21

vu_

18 Pa. C.S. § 505, b(2)(ii)(A) (2009£Edy).

20, 21, 22

18 Pa. C.S. § 505, "Amendment Notes" (2011 Ed.)

20, 21, 22

18 Pa. C.S. § 2702(a)(1)

23

18 Pa. C.S. S 4902

15

18 Pa. C.S. § 4904

14

18 Pa. C.S. § 5552

15

18 Pa. C.S. § 9544(a)(2)

26, 27

Pa. Standard Jury Inst. 9.501, sec. 1, c •» (1),

20

Pa. Rules of Evid.
405(b)(2)
609
804(a)5
804(b)3 _
804(b)5

27
28
14
14
14

vm

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
M For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
(I AM UNSURE)
The opinion of the United States district court appears at Appendix C.R.& E to
the petition and is
[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
(I AM UNSURE—IT MfT OCME UP CN OUR CCMHJIERS) '

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[Y] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 1/8/21
[ ] No petition for rehearing was timely filed iii my case.
[/] A timely petition for rehearing was denied by the United States Court of
3/29/21
, and a copy of the
Appeals on the following date:
order denying rehearing appears at Appendix h—
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including _
A__
/ in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_________________— ? and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date) in
to and including______
Application No.__ A_^
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

mm nmim u.s. oust•»
"No person shall be held to answer to a capital, or otherwise infamous crime, unless on a
presentment of a or indictment of a Grand Jury, except in cases arising in the land or
naval forces, or in the Militia, when in actual service in time of War or public danger;
nor shall any person be subject for the same offense to be twice put in jeopardy of life
or limb; nor shall be compelled in any criminal case to be a witness a^inst himself, nor .
be deprived of life, liberty, or property, without due process of law; nor shall private
property be taken for public use, without just compensation."

sum At©©®*! U.S. Gcnst •»
"In all criminal prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and District wherein the crime shall have been
cannitted, which district shall have been previously ascertained by law, and to be infor­
med of the nature and case of the accusatoin; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor, and to have the
Assistance of counsel for his defense."

KUREeHH AMEJffMENT U.S. Const.: fee. U,
"All persons bom or naturalized in.the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or imnunities
of citizens of the United States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws."
28 U.S. (c)(1),
'Unless a circuit justice or judge issues a certificate appealability, an appeal nay not be
taken to the court of appeals frem—
(A) The final Order in a habeas corpus proceeding in which the detention ccmplained
of arises out of process issued by a State court; or
(B) the final Order in a proceeding under section 2255 (28 USCS § 2255).
18 Pa. C.S. § 302, General requirements of culpability,
"(a) Minimvn
as provided in section 305 of this title
(relating to limitation on scope of culpability requirements), a person is not guilty of an
offense unless he acted intentionally, knowingly, recklessly or negligently, as the law may
require, with respect to each material elsnent of the offense.
18 Pa. C.S. S 501, Uefiiriticns, (2010 Edition), prior to 2011 Amendment.
"'Duelling,f—Any building or structure, though nbveable or temporary, or a portion thereof,
which for the time being is the hone or place of lodging of the actor."
18 Pa. C.S. S 505, Use of Faroe in self-protectim, (b)(2)(ii)(A),
(see next pg.).
3-_

"the actor is not obliged to retreat from his dwelling or place of work, unless he was the
initial aggressor or is assailed in his place of work by another person whose place of work
the actor knows it to be."
(THE ENURE SMUIE IS ATTACHED AS Exh. I AND APPENDIX P_)
18 Ea. C.S. S 2702, "Aggravated Asault," (a)(1), Offense Defined,
"attempts to cause serious bodily injury to another, or causes such injury intentionally,
knowingly or recklessly under circumstances manifesting extreme indifference to the value of
human life."
18 Ea. C.S. S 4902, "Perjury," (a) Offense Defined,
"A person is guilty of perjury, a felony of the third degree, if inyanyfofficial proceeding he
makes a false statement under oath or equivalent affirmation, or swears or affirms the truth
of a statement previously made, when the statement is material and he does not believe it to
be true,"
18 Pa. C.S. S 4904, Unsworn Falsification to authorities,
(a) In General.—A person cannits a misdemeanor of the second degree if, with intent to mislead
a public servant in performing his official function,rhe:
(1) makes any written false statement which he does not believe to be true.
(2) ’submits or invites reliance on any writing whichhhe knows to be forged, altered or
otherwise lacking in authenticity; or
(3) submits or invites reliance on any sample, specimen, nap, boundary nark, car other
object which he knows to be false."
(b) Statements "under penalty."—A parson cctmits a misdemeanor of the third degree if he
mates a written falqp statement which he does not believe to be true, cm or pursuant to a form
hearing notice, authorized by law, to the effect that false statement made therein are pumshible.
42 fe. C.S. S 5552, ’ttther offenses,"
(a) General Pule.— Except as otherwise provided in this subchapter, a prosecution for an
offense must be ccnmenced within two yrs. after it is committed.
(b) Efajor Offenses.— A -prosecution for any of the following offenses must be ccmnsnced
within five years after it is cannitted:
(1) Under the following provision of Title 18 (relating to Crimes and offenses):
Secticmi4902 (relating to Perjury) through section 4912 (relating to impersonating a public
servant).
(APPENDED IN US ENTIRETY AS APPENDIX Q )

4

42 Pa. C.S. 5941(a), Person who nay be rnnpalled to testify,
(a) General Rule.— Except defendants actually upon trial in a criminal proceeding, any
competent witness nay be compelled to testify in any matter, civil or crimnal; hit he may not be
compelled to answer any question which, in the opinion of the trial judge, tend to incriminate him;
nor nay the neglect or refusal of any defendant, actually upon trial in a criminal proceeding, to
offer himself as a witness, he treated as creating any presumption against-him, or be adversely
referred to by court or counsel during the trial.

42 Pa. C.S. 9544 (a)(2),
a.
litigated if.

, an issue has been previously

2) the highest appellate court in which the petitioner could have had review as
a natter of right has ruled on the merits of the issue; or
Pa. Standard Jury Instruction 9.501 sec. 1, c., (1),
(1) retreating, but that (he)(die) failed to do so. (However, the defendant is not obliged
to retreat from (his)(her) own dwelling, that is, any building or structure though movable or
temporary, or a portion thereof, including the doorway, that is, at least for the tine being, the
defendant's hem or place of lodging, unless (he)(she) was the initial aggressorlinothe incident)
(or) (However, the defendant is not obligated to retreat from (his)(her) place of work unless (he)
(she) is attacked there by someone the defendant knows also works in the sane place);(or)...
(THE ENURE JURY INSIRDCI1CN IS ATTACHED AS Exh. H, AND APPENDIX R_)
Pa. Rules of Evidence, 405 (b)(2), '^fethods of Proving Character,"
(a) By reputation. When evidence of a person's character or character trait is admissible,
it may be proved by testimony about the person's reputation. Testimony about the witness's
opinion as to the character or character trait of the person is not admissible.
(2) In a criminal case, on cross examination of a character witness, inwuiry into
allegation of other criminal conduct by the defendant, not resulting in conviction, is not
admissible.
(ATTACHED IN ENTIRETY AS APPENDIX S )
Pa. Rules of Evidence, 609, Impeachment by Evidence of a Criminal Conviction.
(a) In General. For purpose of attacking the credibility of any witness, evidence that the
witness has been convicted of a crime, whether by verdict or by plea of guilty or nolo contendere,
must be admitted if it involved dishonesty or false statement.
(b) Limit on Using the Evidence After 10 years. This subdivision (b) applies if more than 10
years have passed since the witness's cpnviction or release from confinement for it, whichever
is later. Evidence of the conviction is admissible only if:
(Attached inits entirety as APPENDIX T_).

5

Pennsylvania Rules of Evidence, 804,
'‘Exceptions to therRiiTe~agpriTisfr Hearsay When declarant is unvailahle as a witness,"
Sec( (a), "A declarant is considered unavailable if the declarant:
5) Is absent from-.the trial or hearing and the statements proponent has been unable,
by process or other reasonable meanrs to procure ('the declarant’s attendance)."
Sec. (b), "The following are not excluded by the Rule against Hearsay if the Declarant is
unavailable as a witness:
(3) A statement against interest
(A) The statement had such great a tendency to invalidate the declarant’s claim
against someone else, or expose the declarant to civil or criminal liability, and...
(B), (The statement) is supported by corroborating circumstances that clearly
indicate its trustworthiness, if it is offered in a criminal case as one that tends to expose the
declarant to criminal liability.
(6) A statanent offered against a party that wrongfully caused the declarant Js
unavailability.
(4), statements offered against a party that wrongfully caused or acquiesced in
wrongfully causing the declarants unavailability as a witness, and did so intending that result."

(ENURE RULE ATTACHED AS APPENDIX U_)

6

SKTEIENT OF THE CASE
On 6/8/09 I was housed in Northampton County Prison and assigned to cell B2-3 as my living
quarters, Id. 10/6/ID, 44:5-6, (I..was cn A1A from a PA St. prison to Appeal a traffic offence).
While

Hp my a«gn gnpH cell, I -was att^ked by another prisoner who had transferred from a

NJ St. prison, ICM MISERO, who trespassed from his assigned cell, B2-5, Id. 10/5/10, 56:12.
*MISERQ.had. been §eraingitime\aiJew Jersey State prison,. GrimV Case #06000394, Id. Fed.
East. Dist. Disp. Case #12-7081, Id. 16:1-23.
MISERO was an old acquaintance of mine from the city of Easton whcm I’d met in a Juvenile
Detention center, Id. 10/6/10, 47:3-11.
At trial I tpst-if-ied that I was attacked in my own assigned cell, by MISERO, who first threw
hot coffee and then tried to slash me with a razor blade, a struggle ensued where I was able to
disarm him, but when he renewed his attack, in the subsequent struggle I accidentally cut him with
the razor, Id. 10/6/10, 45-50.
* Five photos were also taken of injuries I sustained as a result of his attack, including a
blow to the back of the head, but they were not admitted at trial, See Exh. A, of Superior Ct. PCRA
brief at 337 EDA 2017.
At trial MISERO testified I had pulled him inside my cell and cut him, but did not dispute the
incident occurred in my assigned cell, Id. 10/5/10, 39-95, and he testified he did not know me and
had never met me, Id. 59:24-61:2 and 94:19-21.
* However, Juv. Probation Off. MATT GARVEY testified both MISERO and myself spent seven months
together in a Juvenile Det. center that housed only 24 youths on 2 pods, Id. 10/6/10, 71-74.

Contrary to MISERO*s version of events, defense witness CHRIS BCASE testfied MISERO was not
"pulled inside," but seen entering voluntarily "locking hostile," Id. 10/6/10, 76:2-12.
'r_M3SER0 had also revealed at trial that he was pursuing a lawsuit against the prison re
the incident, Id. 10/5/10,92:17-23r (Case No. 12-7081, Fed. East. Dist.).
IAN RICE was originally a defense witness set to be railed to verify that MISERO had not
been pulled inside my cell, but entered freely with a,,hot cup of coffee, Id. 10/6/30, 24-26*

f7;

* He originally told P.I. SIAHR that he saw MISERO enter my assigned cell-that he wasn't
pulled inside, original P.'I; .report attached, Exh. D.
But, at trial DAN suddenly changed his position to a prosecution witness, now testifying that
after the incident I told him I cut MCSERD over a $20.00 debt, Id. 10/6/10, 18*17—22.
The ADA, PATRICIA MULCpEN then elicited testimony frcm DAN that he was receiving no deal in
exchange for his altered testimony frcm the Prison OR DA Office, Id. 23:19-23.
Closing arguments were then made and the ADA, IUUJKEN told the jury THREE times that DAN was
receiving o>

in exchange for his modified testimony, Id. 10/7/10, 28:4-31:18.

The trial judge STEVEN BARATEA, ,then MCE instructed the jury that I had a duty to retreat
frcm ray assigned cell before using force in self-protection, Id. 10/7/10, 73:23-74:21.
^The jury then returned requesting the self-defense instruction be repeated, Id. 10/7/10,
77:23-78:2.
-.•^The jury was then again instructed 1 had a duty to retreat frcm my own dwelling before using
force in self-protection, Id. 10/7/10, 91:22-23, and my counsel never objected despite both the
Self-Defense Statute, 18 Pa. C.S. § 505 AND Pa. Stand. Jury Inst. 9.501 excusing a duty to retreat
frcm one's "dwelling."
* Additionally, the jury was told that if I injured, the victim accidentally, then I, "connitted
the crime, tt !!there was no justification either," "so (they)* don't have to consider justification,"
Id. 10/7/10, 88:13-15.
As a result I was found guilty of Agg. A ccsn jit SBI and sentenced to 20yrs. Imprisomient at
only 22 yrs. of age.
On Direct Appeal a request for a new trial was fully exhausted re the trial court's refusal
to admit the victim's prior assault conviction, where the PA Rules of Evid. at the time allowed
it's ^nri.^nn pursuant to Gan. V. Bede, 402 A.2d 1371 (1979), holding all assault convictions
flHnrigqiKIP "there is no need to compare facts."
But, the PA Supreme Ct. overruled the rule, altered the PA Rules of Evid. and denied me a
8

new trial, applying the change "ex-post-facto," Can. v. Christine, 129 A.3d 394 (2015), Dissent
filed by Chief Justice—Op. MAP 2015, attached as Appdx_K_, in St. Ct. Rec. at #63.
In 2016 a PCRA was filed on my behalf, where counsel JAMES MADSEN determined that DAN RICE
had filed a BORA after my trial that he signed and certified to be true under 18 Pa. C.S. § 4904.
Therein, he confessed that both the ADA and the Prison investigator agreed before ray trial to
reduce his ^nfenre in exchange for modifying his testimony at my trial, said PCRA was also
amended by his counsel, MICHAEL CORCORAN, who realleged the sane information after meeting with
the ADA.
In DAN|S .4/8/11 filed PCRA, attached Exh. A, in St. Rec. at 122, he confessed,
'PATRICIA MILCpSEN (ADA) said I would receive a sentence reduction in return for my testimony
in an attempted murder trial and I never received the reduction after I testified,"
Id. pg. 3, Sec. B, lines 3-6.
"Also, an agreement between me and PATRICIA MXQUEEN (ADA) in regards to ray testimony in an
attempt murder trial in exchange for a sentence reduction," Id. pg. 3, sec. C, lines 5-7.
"C.o. Naugle Northampton County Prison guard was present during ray interview with D.A.
PATRICIA MJUJJEEN. A setence reduction was offered for my testimony,"
Id. pg. 6, sec. 12.
"Records of ray testimony against JACOB CHRISTINE'S trial for attempt murder (sic),"
Id.-pg. 6, sec. 13.
”
....• "
" '
”
” :
"I DANIEL RICE do hereby verify that the facts set fourth m- the above motion are true and
"correct to the best of ray knowledge information and belief, and any false statanents herein
are subject to the penalties of Sec. S 4904 of the Crimes Code 18 Pa. C.S. § 4904," (last pg.).
Then see LAN's counseled, 6/9/11-Amehded PCRA realleging the same Brady violation, attached
Kxh- B, St. Ct. Rec. # 123,
"ADA MUUJJEEN spoke directly with petitioner about testifying at one. JACOB CHRiSllNE's trial
to Attempt Hanicide," Id. pg. 2, sec. 9.
"Petitioner (DAN RICE) reluctantly agreed to assist the Camonwealth, in consideration for the
petitioner’s cooperation, ADA IULQJEEN for the Cammwealth would intervene on his behalf and
secure a reduced sentence with the Honorable ANTHCNY BEURAMI," Id. pg. 2, sec. 9.
"Petitioner, DAN RICE did in-fact testify on behalf of the Carmonwealth, ADA MULCJJEEN repre­
sented to PCRA counsel that petitioner's testimony was 'vital' to its case in chief.
Petitioner's testimony did in-fact arise in the Caomwealth securing a conviction against
JACOB CHRISTINE," Id. pg. 3, sec. 11.
9-

h

On 5/11/16 a PCRA hearing was held where ray counsel alleged a Brady violation re the material
in these PCRA’s and requested access to the ADA’s file for evid. in support, but was denied.
* Id. 5/11/16, 3:1—4:3, access to ADA’s file was expressly denied when counsel’s QnnibusMotion, was Hpn-ipH in Court, see motion at #72 in St. Rec. requesting, "The contents of the Dist.
Attorney’s file on JA03B CHRESHNE, including ’work product,' prior to the filing.of the instant
PCRA petition," (pg. 5(v) 34(a), "and the contents of the Dist. Attorney's filed on DANIEL RlCE’s
case, CR-48-^4051-2009,’' (pg. 5(v) 34(b). ‘
At this .<ying hearing the ADA "pled the 5th” in response to the Brady, allegation, Id. 5/11/16,
16:12-24, and she did it again at a subsequent hearing, Hi. 7/11/16, 4:24-5:5.
Next, my counsel rail pH DAN's counsel CORCORAN as a witness who read into the record relevant
Brady mai-pri a! from the aforementioned PCRA’s, Id. 66-69.
CORCORAN testified he had in-fact been told by DAN there was a pre-trial secret deal to cut
DAN's prison sentence, that his PCRA had been drafted based on phone calls and letters where DAN
told him this, Id. 67:17-19.
CORCORAN then agreed with my PCRA counsel that in sunmary of all the PCRA material was the
averment by DAN RICE that, "there was a deal for (DAN’s) testimony in the JACOB CHRISTINE case,"
Id. 68:25-69:16, 7/11/16.
•‘•CORCCRAN then admitted that as a-result- of the PCRA’s, DAN'-s saataiceCoh his bank robberywas cut frem 4-8 to 3-6 by the judge named by MULIJJEEN in the PCRA, BELTRAMI, Id. 72.

* See Attached Exh. C, St. Rec. #121, DAN's re-sentencing N.T. in case CR-4051-2009 where
his -qent-pnrp was reduced per "the agreement," after filing the tvro PCRA’s alleging the Brady
violation.
CORCORAN also related that after being assigned to the matter, "he first approached ADA
MULQUEEN and outlined to her .^ymp of the representations in DAN's PCRA;" that she never denied
than, but stated only, "she.would work with (CORCORAN) to achieve the sentence reduction," Id.
77:23-78:5.

Finally, ray counsel attempted to mil DAN RICE as a witness, and he had contracted a local
P.I. BARRY QCLAZESKI, to serve DAN with a subpoena, however, QCLAZESKI testified that he was
unable to locate DAN to serve him the subpoena, Hi. 82-85.
10-

At this Htip DAN was "unavailable" at the hearing, and the ADA "acquiesced" in that
unavailability stating only, 3E have nothing judge," in responseeto GXAZESKI's testimony that he
couldn't locate DAN to serve the subpoena, Id. 7/11/16, 84:19-85.
The PCRA court, and Superior Ct. denied relief on the Brady violation citing the FCRA's as
"hearsay" due to the declarant's unavailability, and never addressed the material demonstrating
the PCRA's and G3R00RAN's testimony was hearsay exception, or the ADA's Pleading the 5th,as V

j

being probative of the violation, See Superior Ct. Op. 337 EDA 2017.
As a result, once a timely S 2254 petition was filed in the Fed, East. Dist., a new P.I.
located DANIEL RICE in the County Jail, initially he would not cooperate with the investigation,
but once released, he issnaH the following confessionsaffidavit which each have a corresponding
P.I. report re the genesis of the Affidavit from P.I. JEN C¥R:
"Everything in my PCRA was true and I net with ADA MJLQQEEK prior to CHKESITNE's trial and
sheJoffered me Hire off my sentence in exchange for testimony :against CHRISTINE.. .1 agreed
to change my testimony for a reduced sentence," 4/12/18 Affidavit, attached Exh. E, in Dist.
ECF at #17, attached to "Traverse."
After more meetings with P.I. CYR, he issued more affidavits recanting his trial testimony:
"My trial testimony was false," 8/28/18 Affidavit with P.I. report, Exh. E.
"Jacob was defending himself against MISERD," 9/15/18 Affidavit with P.I. report, Exh. G.
* Affidavits located in Fed. East. Dist. ECF at #21, 22, & 23, hearing request fully exhausted
to Superior Ct. at 3555 EDA 2018, Op. located in Dist. ECF at #22.
The -i-ssues related to these facts were timely raised and fully exhausted all the way up to t
the Third GLr. Court of Appeals, but in various order, in stannary was, ISSUE A) A Brady violation,
B) Jury erroneously instructed defendant had retreattduty frcm assigned cell, C) Jury erroneously
instructed if defendant accidentally injured victim in self-defense he committed the crime so they
need not consider justification, and D) An Ex-Post-Facto-Violation.
The Thirst Cir. denied a C.O.A. on 1/8/21, a timely Rehearing request (Panel or Enc Banc) was
denied on 3/29/21, and this timely Certiorari request follows to the U.S. Supreme Ct.:

11

REASONS KR GRANTING THE WRIT
I. (QUESITCN #1) REGARDING WHEN A C.O.A. IS TO EE ISSUED, .HAKE THIS OGUKT's HOLDINGS IN
Barefoot v. Estelle, 463 D.S. 880 (1983), AND Miller v. Codcerll, 537 U.S. 332 (2003). BEEN
OVERRULED, CR HAS THE U.S. OOURT OF APPEALS FOR THE 3rd Cir. ERRED IN FAILING TO ISSUE A
C.O.A. OR REARGUMENT IN THE INSTANT MATTER?
ISSUE/A) HAS THE THIRD OR. CT. OF APPEALS ERRED IN FAILING TO ISSUE A C.O.A. OR REARGUMENT
IN THE INSTANT MAHER WHERE THE PEITTECNER PRESENTED A BRADY VRXAT1CN, TWO JURY INSIRICITCN ERRERRORS, AND AN EX-TOT-^ACIO-VIOLATION, MET ALL CRITERIA WARRANTING ISSUANCE OF C.O.A. AND EVEN
RAISED NUMEROUS UNANSWERED QJESITCNS OF EXCEPUCNAL IMPQRIMCE WlfflOUT PRECEE0JT.
The standard for the issuance of a C.O.A. (or Reargument) under 28 U.S.C. S 2253(c)(2) has
„been previously well settled,where in the U.S. Supreme Ct., in Barefoot v. Estelle, 463 U.S. 880,
893 (1983), holding that petitioner need not show that he would prevail on the merits, but simply
must, "demonstrate that the issues are debatable? among jurists of reason; that a court could
resolve the issues (in^av'di fferent manner); car that the questions are "adequate to deserve
encouragement to proceed further."
Also, in Miller v. Cockerll, 537 U.S. 322, 338 (2003), it was affirmed that the standard does
not require the petitioner to show he is entitled to relief, and need not even show he will prevail.
Additionally, this court's precedent regarding a ground that was dismissed on procedural
grounds is that the C.O.A. should issues if it's debatable if the ground is procedurally defaulted,
Slack v. Darnel, 529 U.S. 473, 483-484 (2000).
Despite this being the current established precedent for thernation, the 3rd Circuit Ct. of
Appeals of the U.S. failed to issue a C.O.A. in the instant matter even thoughtfche issues
presented met all the aforementioned criteria and raised multiple questions of exceptional
national importance that were left unanswered and have left a "gray area" in this nations law,
Additionally, the denial of the C.O.A. finalised a judgment by the District Ct. that
rendered decisions in direct conflict with otter Circuit Courts, and the U.S. Supreme Ct.,
conflicts that this great high court should resolve.
Therefore, I ask this great honorable court determine if the Appeals Ct. erred in denying
a C.0.A, or Reargument, and present the following Issues and subquestions in support:
12

(iXOIEniCW-2): Are FCRA’s filed by declarant and his counsel, and testimony frcm his-counsel
revealing Brady violation and trial perjury a hearsay excepticn when the declarant is unavailable?
When the ADA Pleads the 5th in response to the accusation of a Brady violation, does it have
any evidentiary value as an admission in the civil setting of a PCRA hearing?
When the FCRA declarant subsequently becomes available and issues affidavits admitting the
Brady violation, is a rehearing barred by "Pinholster," 563 U.S. 170, 181 (2011), when access to
ADA file was defied at first hearing, and "Bagley,” 606 F.3d 475 (6th GLr. 2012), at ftnote 4,
ref. at 486, states Brady material is a bri^it line excepticn to ’Pinholster."
* OCUffi dffi: A VTQT ALTON OF ERADY VHEJE THE ADA AND CCM1DNWEAI1H WUNESS TESTIFIED NO DEAL WAS
OFFERED IN EXCHANGE EOR HIS TESITMJJY AT TRIAL, EOT AFTER, HE FILED TWO DCRA's, ONE AMENDED BY HIS
COUNSEL, CONFESSING THERE WAS A PRE-TRIAL DEAL TO REDUCE HIS BANK ROBBERY SENIENCE; AS A RESULT
HIS SENIENCE WAS REDUCED BY TWO YRS—I FILED A PCRA, AT THE HEARING THE ADA HFD THE 5th'; ACCESS
TO ADA KHZ WAS DENIED, DECLARANT WAS UNAVAILABLE, BUT HIS COUNSEL TESTIFIED THERE WAS A PRE-TRIAL
SECRET DEAL—RELIEF WAS DENIED; DECLARANT LATER BECAME AVAILABLE AND ISSUED AFFHAVTIS AIMmiNG
IRE-TRIAL SECRET DEAL, BUT A HEARING WAS DENIED, EEC. CTIED "ETNIKISIER" AS BARRING A REHEARING
DESPITE 6th CERCUXT CASE "BAGLFY” HOLDING BRADY IS EXCEPTION; APPEALS COURT FAILED TO ISSUE C.O.A.
This issue is one of significant importance that contains unanswered and even completely
unaddressed questions of exceptional national importance to society that beg answers.
Where a Brady violation is demonstrated by two FORA's filed by alCcfiiv witness!'(one anended by
his counsel) where he admitted a pre-trial secret deal that wm: hidden frcm the jury, rand as a resresult received the benefit of the deal (sentence reduetioin), should this Brady violation be
ignored as hearsay, or should an exception apply due to the evidence admitting perjury, the
declarant’s unavailability, and access to the ADA file seeking more evidence being denied?
Where the ADA pled the "5th" in response to the Brady accusation at the PCRA hearing, which
has been held to be "civil in nature," should this have evidentiary value as a default admission?
And where the evidence of the Brady violation was ignored by the lc*ar courts due to the
declarant’s unavailability, should the appellant be barred a rehearing on Affidavits provided by
the declarant upon his subsequent availability two yrs. later admitting the Brady deal and the
perjury? Should this evidence too be ignored based on "Pinholster," 563 U.S. 170, 181 (2011) when
"Baglay," 696 F.3d 475 (6th Cir. 2012) ftnote 4, states Brady is an exception to "Pinholster,"
and at the first hearing, the declarant was unavailable and access to the ADA file was denied?
Therefore please consider if the C.O.A. denial was in error for these reasons:
13

THE TWO FCRA's AND THE DEOARANTS COUNSEL'S TESEIMNY ATMTITING THESE WAS A BRADY VIOLATION
WAS A HEARSAY EXCEPTION
Where the Can. witness DAN RICE alleged in his'4/8/11 filed PCRA, attached Exh. A, in St.
Rec. at #122, attached to Dist. Hab. at #1, and 3rd Cir. COA Req. at #21, on pgs. 3, 6, and 9,
that there was a pretrial secret deal to reduce the sentence on his Bank Robbary hidden fran the
jury, and where his counsel then Amended the petition, admitting the same in his 6/9/11 filed
PCRA, on pgs. 2 and 3, attached Exh. B, in St. Ct. Rec. at 123, Dist. EEF #1, and 3rd Cir. at #21,
and then the attorney admitted it was all true at my 7/11/16 PCRA hearing, Id. 66-80, this
material was all a hearsay exception under U.S. Supreme Ct. precedent, because all the.
material indicated the declarant admitted he ccranitted perjury when he testified at my 10/6/10
trial he was receiving no deal in exchange for his testimony knowing heswas, Id. 23:19-21, and
the ADA alleged the sane, 10/7/10, 28:18-21, 28:4-31, and 30:1-14.
Chambers v.

i, 410U.S. 284, 300 (1973), at Headnote 16 and 710, "contrary to

penal interest hearsay exception," where a declarant admits he ccnmitted a crime.
* The "contrary to penal interest hearsay exception" is also codified uner PA law, Pa. R.
Ev±d. 804 (b)3, (A) & (B), due to (a)5, a "declarant’s unavailability," and is considered even
stronger when "made to a member of the BAR," such as the aforementioned scenario, see Can. v.
Statun, 769 A.2d 476 (2001) at prg. 19 & 22.
* In the instant case, the PCRA declarant was declared unavailable where my PCRA counsel
JAMES MADSEN, hired a licensed P.I., BARRY GQLAZESKI, to locate and serve IAN RICE with a
subpoena, but BARRY testified he couldhJ,t locate DAN, Id. 7/11/16, 82-85.
* Furthermor, the ADA "acquiesced" the declarant's unavailability, Id. 7/11/16, 84:19-85,
which under state law is another hearsay exception in Pa. R. Evid. 804 (b)(6).
* The statements in the FCRA’s were eertifiedctotbe true under penalty’.of .law, 18 Pa.
C.S. § 4904, and both the PCRA statements dated 4/8/11, and those made to his attorney no
later than 6/9/11 were all made beforeLtfi^ stattitecofiliiiiitation PA. Const. Statute S 5552,
had expired on perjury, 18 PA. C.S. § 490*1, therefore the statements were contrary to his
"penal interest."
VHEKE THE ADA PIED THE "5th" IN RESPONSE TO THE ACCUSATION THERE WAS A BRADY VTQf ATTTN
SAID SILENCE HAD EVIDENTIARY VAUJE AS A DEFAULT AMISSION
At my 5/11/16 PCRA hearing Id. 3:l-4:3, when ray PCRA counsel called the AEA asraqwitness
re the Brady material, she plead the "5th" and refused to testify, then she did it again on
14

my 7//16 PCRA hearing, Id. 4:24-5:5.
Additionally, DAN's counsel CORCORAN, also testified that before he drafted his Amended
PCRA corroborating there vas a Brady violation, "(he) first approached (the AM) and outlined to
her sane of the representations in DAN's PCRA," and thhtet"she never denied than," but stated
only, "she would work with (CORCORAN) to achieve the sentence reduction." Id. 7/11/16, 77:23-78:5.
According to Federal precedent, this silence was a default admission, U.S. v. lafferty, 503
F.3d 293 (3rd Cir. 2007)(Headnote 11) ("adoptive admission"), and U.S.vv. Watson, 552 Fed. Appdx
480 (6th Cir. 2012)(14a0038n.06)(12-2218)('''admission by silence"), also under PA St. law, Can. v.
O'Kicki, 597 A.2d 152, 164 (1991)("implied admission").
* Additionally, thelPA Supreme Ct. has ruled that a PCRA hearing is "civil" in nature, see,
Can. v. Haag, 809 A.2d 271, 284 (2001)(at 14), and PA law holds that an "adverse inference" nay
be specifically infered from a "5th Amendment" invocation in a "civil" setting, Franpovicz v.
W.C.A.B. (Palsgrave), 642 A.2d 638 (1994).
* It's also relevant that at the time the AM "pled the 5th" at ray 5/11/16 and 7/11/16 PCRA
42 Pa. C.S.
§ 5552 for Perjury, 18 Pa. C.S.
hearing, the 5 yr. statute of limitations under !
§ 4902 was already expired, and therefore, the AM had no 5th Amendment privile^cfor perjury
cannitted at 2010 trial over 5 yrs. prior.
Therefore, unddr 42 Pa. C.S. S 5-941 (a), she vas compelled to testify, but refused, and
this statuterisrspecific that the only_tine a refusal to testify may not createa presumption
against," is to a "defendant actually upon trial in a criminal prosecution."
WHEN THE EBXARANT SIIRSFHIENIT.Y BECAME AVAILABLE TWO YRS. AFIER MY PCRA HEARING AND
ISSUED SWCRN AFFTMVriS AIMTITING THE BRADY VHMTCN, A HEARING WAS NOT BARRED BY "FTMtXSTER"
Attached as Exhs. D, E, and F, are Affidavits issued by the PCRA declarant DAN RICE
admitting the Brady violation, and attached to each affidavit is a P.I. report detailing how
the Affidavit's previously unavailable.
The State barred a PCRA hearing on these affidavits and I exhausted that request to the
Superior Ct. at 3555 EM 2018, the District also denied a hearing citing that it couldn't
consider the new evidence because I was already granted a "full and fair hearing" in the State, s
Id. R&R pgs. 13-14, citing Cullen v. Pinholster, 563 U.S. 170, 181 (2011).
This ruling was contrary to a decision from the 6th dr., and I request this honorable
court answer the question:if this opinion should apply in all Circuits.
15

Jones v. Bagley, 696 F.3d 475, (6th Cir. 2012) at footnote 4, referenced at 486,
"If petitioner were able to show a Brady violation, introduction of new evidence not considered
by the State Court would not violate the rule announced in Cullen v. Pinholster."
Additionally, a decision fran the 3rd Cir. is indicative that the holding of Bagley, should
apply through the whole country, Dennis v. Sec. of Corrections, 834 F.3d 263 (3rd Cir. 2016), at
290-294,
"Ihe U.S. has never recognized an affirmative due diligence duty of defuse counsel as part of
Brady, let alcoe the exception to the mandate of Brady this would clearly be."
* In the instant case, the District, has placed>a;due diligence duty on defense counsel to
procure the PCRA declarant at ray FCRA hearing to corroborate the Brady violation already demonstr­
ated by the PCRA's and his subsequent sentence redction; said decision was contrary to "DENNIS."
Lastly, because "Pinholster," only held a hearing is barred when a defendant already had a
"full and fair hearing," Id. 181, "Pinholster" wouldn't bar a hearing on the affidavits in the
instant case because one, the declarant was unavailable at my 7/11/16 FCRA hearing when my
counsel's P.I. testified he couldn't find him^Id. 82-85, my counsel was expressly denied access
to the ADk's relevant files, Id. 5/11/16, 3:1-4:3.
* Id. 5/11/16, 3:l-4:3, my counsel's Omnibus motion, St. Rec. #72, requesting, "the contents
of the District Attorney’s file on JACOB CHRISTINE,1 'including 'work-product,' prior to the filing
of the instant PCRA petition," and "the contents of the District Attorney's file on DANIEL RlCE’s
case, 4051-CR-2009," Id. Pgs. 5(v), 34(a) & (b), was expressly denied by the PCRA judge.
* Even the District denied a subsequent Discovery request at #21 fran 5/3/19.
In the instant case ray rights were violated under the 5th, 6th, and 14 Amendment of the
USCS, and the lower courts have not followed the mandate of Brady,v. Maryland, 373 U.S. 83 (1963),
t

there is also indication the lower court’s rulings were contrary to Napue v. Tllinoi.s, 360 U.S.
264 (1974).
* In Napue, the defense attorney who used to be a DA, filed motion requesting a sentence
reduction for his client who he alleged he’d premised a sentence reduction to in excahnge for
his testinmy at a trial where he was the prosecutor.
The jury was never apprised of this in that case; the defendant found out and a hearing
was held where the attorney and:the witness testified the allegation was false,' but because it
was alleged on paper the U.S. Supreme Ct. vacated and dismissed the case.
Please allow roe to review the rfacts,
16

At trial the ADA elicited testimony from the Ccm. witness DAN RICE that he was receiving no
dm! in exchange for his testimony from the DA Office or the prison, Id. 10/6/10, .-23:19-23.
The ADA also made it a key part of her-, closing arguments testifying multiple times that
DAN RICE was receiving no riral in exchange for his testimony, Id. 10/7/10, 28:4-31:18.
But after my trial, DAN RICE filed two FCRA's, one which was Amended by his counsel, where
he confessed he cannitted perjury at my trial, that he did in-fact receive a pre-trial sentence
reduction deal in exchange for his testimony.at my 10/6/10 trial.
See, Dist. Ct. ECF# 1, Hab. Memorandum. Exh. C, #122 in St. Record, DAN’s pro-se FCRA where
he reveals the Brady violation and his perjury, doc. attached Exh. A,
"(the ATA) said I would receive a sentence reduction in return for ray testimony in an attempted
nurder trial trial and I never received the reduction after I testified,"
Id. pg. 3, sec. B, Line 3-6.
"Also, an agreement between me and (the ADA) in regards to my testimony in an attempted murder
trial in exhange for a sentence reduction,"
Id. pg. 3, sec. C, line 5-7.
"Northampton County Prison Guard was present during my interview with D.A.. .A sentence reduction
was offered for my testimony," Id. pg. 6, sec. 12.
Id. pg. 6, sec. 12.
"Records of my testimony against JACOB CHRISTINE'S trial for an attempt murder,"
Id. pg. 6, sec. 13.
"I DANIEL RICE do hereby testify that the facts set fourth inlthe above motion are true and
correct to the best of my knowledge and information and belief, and any false statements herein
are subject to the penalties of sec. § 4904 of the crimes code 18 Pa. C.S. § 4904,"
Id. Last pg. pf PCRA.
Then see Dist.::BCF #1, Hab. Mem. Exh. D, #123 in St. Rec., attached as Exh. B,'DAN's counsel
MICHAEL CORCORAN, filed an Amended PCRA on 6/9/11 realleging the same Brady material,
"ADA MLJLXJJEEN spoke directly with petitioner about testifying at one JACOB CHRISTINE'S trial
to attempt homicide,"
Id. pg. 2, sec. 9.
"Petitioner (DAN RICE) reluctantly agreed to assist the Canoonwealth, in consideration for the
petitioner's cooperation, ALA MULQUEEN for the Commonwealth would intervene on his behalf and
secure a reduced sentence with the honorable ANIHQNY BELTRAMI,"
hi. pg. 2, sec. 10.

17

"Petitioner, DAN RICE did in-fact testify on behalf of the Caimonwealth, ADA MULQUEEN repre­
sented t6 PCRA counsel that petitioner’s testimony was ’vital' to its case in chief.
Petitioner’s testimony did in-fact arise in the Ccnmonwealth securing a conviction against
JACOB CHRISTINE,"
Id. pg. 3, sec. 11.
As a result on 9/30/11, DAN's sentence on his Bank Robbery was reduced by 2 yrs. see N.T •»
EAN’s 9/30/11 resentencing hearing in case # 4051-CR-2009, attached to Initial Hab. at Dist. EOF
#1, in St. Ct. Rec. at #121, attached here as Exh C.
On 5/11/16 a PCRA hearing was held where my PCRA counsel alleged a Brady violation re the
material in DAN’s FCRA's and he requested access to the ADA’s files for Evid. in support, but he
was denied, Id. 3:1-4:3, (Omnibus motion requesting discovery was denied, motion at #72 in St.
Ct. Rec.).
At this samp hearing the ADA "Pled the 5th re the Brady violation, Id. 5/11/16, 16:12-24, and
she did it again at a subsequent hearing, Id. 7/11/16, 4:24-5:5.
* The Dist;:‘.adopted R&R.didn't dispute this, see R&R pg. 11, ftnote 5, acknowledging, "this
was one peculiar aspect of the PCRA proceedings that bears mention," but failing to address the
evidentiary value as an admission.
* Also, see. pg. 5, prg. 3, line 2-4, of Superior Ct. PCRA Denial Appeal Op. 337 EDA 2017,
acknowledging, "we are particularly troubled by attorney MJIQUEEN's decision to invoke the 5th,"
but also fading to address the evidentiary value as an admission.
Then, 7/11/16, DAN's counsel (CORCORAN clarified explicitly that DAN fold him there was a
secret deal to cut his prison sentence made by the ADA in exchange for his testimony, Id. 67:17-19
and 68:25-69:16, he also admitted that it was because of the PCRA's that DAN’s sentence was
reduced on 9/30/11, Id. 72, and that he authored: tbe:Amended PCRA Petition, Id. 66-69.
CORCORAN also related that he, "first approached ADA MLIjQUEEN and outlined to her seme of the
representations in DAN’s PCRA," and the die never denied than, Id. 77:23-78:5.
And although my PCRA counsel did secure a licensed P.I. BARRY GCLAZESKI, to locate DAN RICE
and serve his with a subpoena to appear, he testified he could not locate DAN to serve him with the
subpoena, Id. 82-85, and the ADA "acquiesced" in that unavailability,” Id. 84:19-85.

18

When all State courts denied relief on the Brady violation, (but having never addressed the
relevant hearsay exception and ADA's pleading the 5th being a default admission claims), my
family contracted a new P.I. to locate the Brady witness DAN RICE.
* The State Superior Ct. denied relief Jan. 2018, that same month a new P.I. was contracted.
The new P.I. JEN OR was able to locate DAN RICE in the County Jail because he had been
arrested on a new case, he was initially uncooperative, but once he was released he issued three
affidavits confessing, (this was approx. ;:-2r;yrs. after my initial PCRA hearing),
'Everything in my PCRA was true and I met with ADA MQUJJEEN prior to CHRISTINE'S trial and she
offered time off my sentence in exchange for testimony against CHRISTINE...I agreed to change
my testimony for a reduced sentence,"
Id. 4/12/18 Affidavit, attached Exh. E, located in Dist. ECF at # 17, 21, 22 & 23.
"My trial testimony was false,"
Id. 8/28/18 Affidavit, attached Exh. F, Dist. ECF location, #21, 22 & 23.
"Jacob was defending himself against MISERO,"
Id. 9/15/18 Affidavit, Attached Exh. G, located Dist. ECF# 21, 22 & 23.
* P.I. report is attached to each affidavit indicating genesis and previous unavailability.
* A hearing request in the St. Ct. on the affidavits was fully exhausted on 4/26/19 to Pa.
Superior Ct. at 3555 EDA 1018, Op. in Dist. EEC at #22, hearing request to Dist. at #21 was
denied at #27.
The aforementioned material demonstrates a Miscarriage of Justice in the form of a Brady
violation, but both the State and District failed to address the salient questions of the claim,
and issadd a ruling contrary to Fed. Cir. Ct. & U.S. Supreme Ct. precedent, and U.S. Const.
Additionally, the Dist. and State failed to grant a hearing on the Brady issue upon the
declarant's subsequent availability contrary to Jones v. Bagley, 696 F.3d 475 (6th Cir. 2012),
footmte 4, ref. at 486, (holding "Pinholster" does not bar rehearing cti Brady material).
Subsequently, the 3rd Cir. Ct. of appeals erred contrary to Miller-el v. Gockerll, 537 U.S.
322 (2003)in failing to grant C.O.A. or Keargiment and I request Certiorari issue in this natter.
sje. There i.q .g^TTply even more evidence of this Brady violation (and maybe more) just sitting
in ths DA Office files, but because the State Ct. unlawfully refused to turn the files over,_I_
ran't get the evidence without a Rehearing in the Federal Ct., this couldn't possibly have been
the intention of "Pinholster," and that is why "Bagley" ruled Brady material ah exception.
19

.(iiXQJESnCN #3): MM THE JURY RETURNED FRCM DE1JBERATTCNS REQUESTING HE SELF-DEFT'SE INST­
RUCTION REPEATED AND WERE ERRONEOUSLY INSTRUCTED THE DEFENDANT HAD A DUTY ID RETREAT FRCM HIS CM
IMBUING, WERE THE DEFENEANT’s HIE PROCESS RIGHIS VIOLATED WHERE
, THE DIST. DISFCSED OF THE OAIM BY ADOPTING A MISREPRESENTATION BY THE STATE COURT
THE DUTY WAS NOT EXCUSED FRCM A "DWELLING" UNDER THE STATUTE AT THE TIME OF TRIAL WHEN TT WAS, AND
JOES. Ai PRISONER HAVE A OT3ITIUIICNAL RIGHT TO STAND HIS GRQUNDjIN AN ASSIGNED JAIL CHL ERCM
AND ARMED, TRESPASSING ASSAILANT?
* GBJHD TWO: TRIAL COUNSEL WAS INEFFECTIVE FOR FAILING TO OBJECT TO OR CORRECT ERRONEOUS JURY
INSTRUCTION No. ONE, WHERE AFTER THE JURY RETURNED FROM DELIBERATION REQUESTING THE SELF-DEFENSE
INSIRUCHCN BE REPEATED THEY WERE TOO) A THIRD TIME I HAD A DUTY TO RETREAT FROM AN AEMED TRES­
PASSING ATTACKER IN MY OWN IMEXXING-^XWER (JURIS ERRED IN ADOPTING A MISREPRESENTATION BY THE'ST.
CT. THAT THE SELF-DEFENSE STAIUIE DHJfT EXOUEE A DUTY TO RETREAT FROM ONE'S 'TMELUNG" AT THE
TIME CP MY TRIAL, WEN IT HID, AND TRIAL COURT FAILED TO EXCLUDE SAID DUTY FRCM MY ASSKNH) JAIL
CELL: THE THIRD CERCU3T OF APPEALS THEREFORE ERRED IN FAILING TO GRANT A C.O.A.
At trial it was undisputed that the incident took place in ray assigned cell, Id. 10/6/10, 44:
5-6, I was assigned to re'll #3, the place of the incident, Id. 10/5/10, 56:12, whereas the alleged

victim was assigned to cell 5, - and admitted the incident took place in my

igued cell, Id. 56-59.

9QCI

I testified:that the victim trespassed in my assigned cell, threw hot coffee and attacked me
with a razor blade, at which time, during the struggle I injured him with his own weapon, Id. 10/6/
H), 44-47; witness CHRIS BQASE also corroborated the victim trespassed in my cell, Id. 75:23-76:9.
However, the jury was instructed three separate times that I had a duty to retreat from my
own assigned cell before defending myself, Id. 10/7/10, 73:23-74:1, 74:17-21, and the third time v&s
after jurors returned from deliberation requesting the instruction be repeated, Id. 91:22-23.
* The jury returned frcm deliberations requesting the instruction be repeated for self-defense
Id. 10/7/10, 77:23-78:2, however, they received the wrong instruction a third time, creating
criminal liability where none existed.
This is a nrisinstruction that created criminal liability where there was none—the applicable
Self-Defense instruction in place at the time of myi'2010 trial was frcm 2005, Pa. Stand. Jury Inst.
9.501, attached Fbh. H, and it excluded a duty to retreat from one's own "dwelling," as did the
Self-Defense Statute 18 Pa. C.S. S 505 since 1972, attached Exh. I, ex. rel., see Pa. Stand. Jury
Inst. 9.501, pg. 3,

sbc.

1. c. (1), 2005 Ed.—pre 2011 Amendment, excluding duty to retreat frcm

one's own ''dwelling" and adding stand your ground law, (I'm quoting the 2005 Edition here cn the
next pg. so you can see the retreat duty was excluded frcm one's "dwelling"),
20

"a. defendant is not obliged to retreat frcra his/her own dulling; that is any building or
Structure, though moveable or temporary or a portion thereof, including the doorway, that is
at least for the time being, the defendant's hcmecor place of lodging," Esh. H.
Also see, IS Ra. C.S. S 505, sec. (b)(2)(ii)(A), Ed. fran 2010, pre-2011 Amendment,
"The actor is not obliged to retreat frcm his dulling or place of work," Exh. I.
The 6th Cir. granted a new trial for this very same issue in Berliner v. Egeler, 583 F.2d 515,
518 (6th Cir. 1978).
Also ex. rel. is EQvis v. Strack, 270 F.3d 111 (2nd Cir. 2001) at heodnote 6,
"finding that defendant was deprived of instruction to which he was entitled to under state
law is first step in determination that error denied petitioner due process," (C0A granted).
And it is well settled relief can be granted for counsel's failure to correct an erroneous
jury inst. that created crim. liability where there was none, Real v. Shannon, GOO F.3d 302, 309
(3rd Cir. 2010)(counsel's duty to correct faulty inst.) and Strickland v. Washington, 466 U.S.
688 (1984) ineffectiveness generally.
The lower court erred in failing to exclude a duty to retreatrfrom my assigned cell (see,
R&R pg. 21, prg. 2), and the 3rd Cir. should've granted a (DA re this issue, where by statute,
my ysfeignpH jail cell couldn't be excluded frcm the definition of a "dwelling," under 38 Ra. C.S.
S 501, 1972 Ed., latest before my 2010 trial.
"subsequent provisions of this chapter which are applicable to specific provisions of this
chapter, the following words or phrases, when used in this chapter shall have, unless the
context dearly indicates otherwise, the meanings given to than in this section,"
Id. prg. 1, 18 Pa. C.S. S 501, "definitions," 1972 Ed. attached Exh. J.
a, "'dwelling,' is any hmlding or structure though moveable or temporary or a portion
thereof, which for the time being is the hone or place of lodging of the actor,"
attached Exh. J, 1972 Ed. latest Ed. before my trial; does not say need be private.
* At the time of my trial this was PA law protected under theil4th:Amendment of the U.S. Const,
and it held that one's jail cell cannot be excluded frcm this definition because it is a "building
or structure" which for the time being was my "hone or place of lodging."
* 18 Ea. C.S. 8 501 «1.qo specifies, meaning cannot be taken outside of the context of the
definitions provided therein unless it "clearly indicates otherwise," therefore the Stv .‘.cannot
legally exclude a jail cell frcm the definition where the statute does not make such exclusion.

21

This District Ct. also erred in

. that,

"Ihe Superior Ct. reiterated that 18 Pa. C.S. § 505 was not amended until 8/27/11 and that
that expanded definition of ’castle1 to include one's .'dwelling, residence or place of
'wprk' was not in affect at the time of Christine's trial," Id. R&R, pg. 21, 1st prg. at
the "#17."
* This was an adoption by the PA Superior Ct. of the FCRA Court's misrepresentation re the
content of the self defense statute § 505 prior to the Amendment that the Dist. adopted.
This was a mistake that has been overlooked, and was never addressed by the lower courts,
undeniably there was an exclusion of a duty to retreat frcm one's "dulling" and "place of work"
at the tine of my trial prior to the 2011 Amendment, see Exh. I, 18 Pa. C.S. § 505 1972 Ed.,
Exh. H, Pa. Stand Jury Inst. 9.501, and the post 2010, 2011 Amended 18 Pa. C.S. § 505, last pg.,
last prg., "Amendment notes," sec. (b)(2)(ii), "the actor is not obliged to retreat from his own
"dwelling," was already in the statute before the Amendment, see Exh. K.
* The only edition made to l&Pa. C.S. § 505 in 2011 was the "stand your ground" rule that
added an exclusion of a duty to retreat for confrontations outside one's "dwelling."
Lastly, in addition to a 14th Amendment U.S. Const, right to the Application of the State law
/

instruction, this issue has raised a question of significant public importance where the District
on pg. 21, prg. 3, lines 6-8 of the R&R presented, "there is no precedent extending the 'Castle
Doctrine' to a prison cell," this has raised the question:
Does a prisoner in his assigned cell have a U.S. Const, right to stand his ground frcm an
armed trespassing attacker, or is his health and safety of such a diminished value he must first
attempt a retreat land risk: an uncertain fate outside of his cell?
Current precedent frcm the U.S. Supreme Ct. is indicative that abridging sucha basic human
right is contrary to the holding in I mi d v. Louisiana, 373 U.S. 267, 275 (1963), (Douglas J.
incurring),
"The principle that a man's hone is his 'castle' is basic to our system of jurisprudence."
* At trial a record was made that my assigned cell was my "dwelling," and "heme,"
Id. 10/6/10, 44:3-5,
(Quote on next page)
22

Counsel: "On June 8th, 2009, where were you living?"
Myself : "I was living in cell B2-3 in Northampton County Prison."
This issue constitutes a

error, and warrants Certirorari frcm this great high

Ct. both due to the flagrant legal error, but also because this is an issue that has raised a
a question of significant public importance that begs an answer.
It is well known and widely accepted that prison is a dangerous place, and a prisoner's cell
is his one safe zone frcm other prisoners, it is where he sleeps, keeps his belongings, where the
mail arrives, where he uses the bathroom, it's the one place he has a little privacy, and where
other prisoners are not permitted to freely enter, gmri the door is lockable, and I ask this great
honorable court, to please answer whether or.mot there really should exist a criminal liability l
for failing to retreat frcm this (me safe zone from an armed trespassing attacker.
This issue is one of even greater importance in our society because this was in the County
jail, and in our society, everyday citizens are sent to jail on a regular basis even for infractions
as .small as a Summary Offense such as Disorderly conduct or Driving under a suspended lisence, and
therefore, I believe this issue is one of even greater importance to decide to what degree a
prisoner's U.S. Const, right to self protection is protected.:
For these reasons the 3rd Cix. Court of Appeals erred contrary to Miller-el v. Cockerell, 537
U.S. 322 (2003) in failing to issue a C.O.A. or Reargument and I request Certiorari issue.
* Although I am aware it is rare that relief is granted this high level for Jury Inst, errors,
I ask this honorable court please take into consideration, the serious nature of this error, the
questions of public importance that have been raised, and, the fact that the jury was obviously
considering these questions heavily when it returned frcm deliberations requesting the instruction
be repeated, Id. 1D/7/10, 77:23-78:2; and where I have demonstrated the content of the actual State
law instruction which couldn't have excluded a prison cell, has been flagrantly misrepresented and
adopted by the lower courts.
(iii)(CPSrim#4):WHERE THE JURY RETURNED FRCM DELIBERATIONS REQUESTING THE SELF-DEFENSE INSTTRUCIICN BE REPEATED AND WERE ERRCNEDUSLY JNSMTTED IF THE DEFENDANT ADCTEENEALLY INJURED THE
VICTIM IN SELF-DEFENSE, THAT HE, "OOMUTED THE CRIME," AND THE JURY "NEED NOT CONSIDER
JUSTLF1CATECN," DID THIS MISINSIRUCTLCN INFECT THE ENURE TRIAL WITH UNFAIRNESS, VHERE UNDER ST.
LAW SELF-DEFENSE AND ACCIDENTAL INJURY ARE NOT MUTUALLY EXCLUSIVE UNDER Childs, 142 A.3d 823
(2016), AND WAS IT OCNSITIUIICNAL
THE DIST. ID CLAIM THIS MAY HAVE BEEN A "SCRIYNER ERROR?"
(ISSUE CN NEXT PAGE)
23

* (SON) 3: WHERE I TK7ITFTM) THAT I INJURED THE VICTIM A0J3M^LLY.M01£ DEFENDING MYSELF AND
THE JURY RETURNED FRCM DELLEERA1TCNS REQUESITNG THE SELF-DEFENSE INSIRUJITCN EE REPEATED, MY TRIAL
COUNSEL WAS INEFFECTIVE HE FAILING TO OJRKBJT THE ERRCNEOUS 1NSIRICITCN THAT IF THEUURY BELIEVED
THAT
I AOCELENEALLY INJURED THE VICTIM IN SELF-DEFENSE THAN, 'THERE WAS S&JUSTIFECA1ICN EITHER
BECAUSE THE ISHNDAMT CtMUTTH) THE CRIME," AND THE LOWER COURT ERRED IN HOLDING THIS MASSIVE ERROR
DID NOT INFECT THE ENURE TRIAL AND ALLEGING IT MAY A "SCRIVNER ERROR” WHICH IS NOT COGNIZABLE.
At trial I testified I had injured the victim with his own razor blade accidentally in selfdefense, as he fought with ms, Id. 10/6/10, 49:2-15, ex. rel. 10-15.
When the jury left to deliberate, they returned with questions requesting the self-defense
instruction be clarified and repeated, Id. 10/7/10, 77:23-78:2.
At this time the jury was explicitly instructed,
"If you accepted the defendant's testimony, that in defending himself, accidentally the victim
vas slashed, then there is no justification either, because THE DEFENDANT 0CMUT1EL) THE CRIME, '
so you don’t have to consider justification," Id. 88:13-15.
This is a massive error that created criminal liability where there was none,' and if the jury
believed me, this instruction.error, forced them to render a guilty verdict contrary to law.
* See, 18 Pa. C.S. § 302(a), "a person is not guilty of an offense unless he acted intention­
ally," (statute related to "general culpability requirement" of any crims).
* And, 18 Pa. C.S. S 2702(a), also requiring intent, "A person is guilty of Agg. Assault if
he...causes (bodily injury) intentionally."
Also, this instruction error negated self-defense as a whole, stating, "there is NO justifie
cation EITHER because the defendant OMTTED THE CRIME, so YOU DON'T HAVE TO OCNSIDER JUSHFECA^
TECN," which is untrue* where PA law holds explicitly that accidental injury is justified, if done in
self-defense, see Cnm. v. Childs, 142 A.3d 823 (2016), (decided after :my trial, affirming rule
established before my trial fn Com. v. IfcFadden, 587 A. 2d 740, 742 (1991)), and also Can. v.
Buska, 655 A.2d 576 (1994)(at Headnote 14), accidental stabbing and self-defense not mutually

exclusive), (all these cases held the two defenses are not mutally exclusive).
Reversal due to a jury inst. is warranted if the instruction is confusing, misleading or
prejudicial, U.S. v. Sassak, 881 F.2d 276, 279 (6th Cir. 1989).
I also have a right to effective assistance of counsel re incorrect instructions, Real v.
24

600 F.3d 302, 309 (3rd Cir. 2010), and Strickland v. Vfedringtcn, 466 U.S. 688 (1984).
The District's resolution that, "this.:type:of isolated error does not infect the entire
trial resirLtingiinjai'ccriviction that violated due process," was unreasonable, and reasonable jur±

ists would've di

; this is a fundanental error (see R&R, pg. 26, prg. 2, line 6-8,for Dist.

resolution).
* Where is was only one word that meant the difference between a verdict of guilty v. not
guilty, how could an erroneous instruction stating accidental conduct done in self-defense is
a crime when by law it is not, not infeetitheientire trial with unfairness when it was given
asr;a final corrective instruction when the jury returned frcm deliberations requesting the very
inst. be repeated?
lastly, Id. pg. 25 of R&R, there is also an allegation<:this my have been a transcription
or "scrivner error,"—I can attest that it is not, but more relevant, that is not a cognizable
defense, Neu v. Grant, 548 F.2d 281 (10th Cir. 1977), right before 287,
"matters not appearing on the record will not be considered by the court of appeals."
And this

allegation has also raised a question of exceptional public importance, is this

a new precedent allowing fundamental jury instruction error to be dismissed as "scrivner errors?"
*;,ilrespectfuMy present thatito:. entertain a claim this is a "scrivner error" in order to
deny me relief haslsetia frightening1 andruneonstitutional precedent, opening a Pandora's box,
where any Constitutional violation can be dianisseddas a "scrivner error."
With respect to this issue, my rights were violated under the 5th, 6th, and 14th Amendment
of the U.S. Const • i and the 3rd Cir. Appeals Ct. erred in failing to grant a OQA or grant
Reargunent contrary to Miller-el v. Gockerll, 537 U.S. 322 (2003).

* It was al.qn error that the 3rd Cir. failed to grant a C.O.A. re this issue where pursuant
to Breakirai v. Horn, 642 F.3d 126, 131 (3rd Cir. 2011, "De Novo" review was supposed to be
conducted due to the fact the State Superior Ct. at 337 EDA 2012 (2018C268519) never addressed
this issue.
* The R&R even acknowledged on pg. 25, ftnote 8, that the Superior Ct •» "failed to otherwise
discuss the issue of this alleged error."
The R&R did claim, "the court incorporated by reference the PCRA court's resolution of the
realted Castle Doctrine alleged inst. error," however, the ca.st.1e doctrinec-error and the
aforementioned, are very distinctcClaims, abd because the latter was not addressed, this is
another reasons the 3rd Cir. erred in not issuing a C.O.A.

25

(iv)(cpsnm #5): IS PROCEDURALLY DEFAULTING A DEFENDANT FOR FAILURE 10 RELEITGATE A FULLY
EXHAUSTED DIRECT APPEAL CLAIM CN PCRA UNDER THE ALTERNATIVE LEGAL THEORY CR ALLEGATION OF AN
"EX POST FACIO" VIOAUCN ONSmUriCNAL WHEN THE STATE PCRA ACT EXPRESSLY FORBUS SAID RELETEGATICN UNDER 42 Pa. C.S. S 9544(a)(2), see Collins, 888 A.2d 564 (2005) Headnote 3.
AND IS THE DISTRICT PERMITTED TO LEAVE CLAI>S AND DISPUIED MATTERS UNADEESSED?
* GROUND F0®:EX-KS1-FACID AND 14th AMENEMENT VICLAITCN WHERE PA SUPREME CT. OVERRULED
PRECEDENT CASE AND ALTERED THE RULE OF EVIDENCE IN VIOLATION OF THE U.S. CONST. AND APPLIED
THE CHANGE EX-PCST-FAdO DENYING ME A NEW TRIAL UNDER THE ORIGINAL RULE ALLOWING THE VICITM's
PRIOR ASSAULT CHARGE TO BE AEMTITED AT TRIAL, BUT THEY CHANGED THE RULE AFTERWARD; CHIEF JUSTICE
ISSUED SCALDING DISSENT—BEST. .ERRED BY PROCEDURALLY DEFAULTING CLAIM FOR FAILURE TO RELUTGATE
CN ST. PCRA DESPITE 42 Ea. C.S. S 9544(a)(2) and PA SUPREME CT. PRECEDENT Collins, 888 A.2d 564
(2005) Headnote 8, EXPRESSLY PROHIBITING SAID CONDUCT AND THIRD OR. APPEALS GT. FAILED TO ISSUE
A C.O.A.
At trial,cbecau.se I was presenting a self-defense claim, the PA R. of Evid. provided that the
alleged victim’s assault conviction was adndssibl&ftoDshow a "propensity for violence," Can. v.
Beck., 402 A.2d 1371 (1979), holding ALL prior assault convictions admissible, and at 402, "there
is no need to compare facts."
However at trial the alleged victim’s prior assault was not allowed admitted, the issue was
fully preserved an appealed, but the PA Supreme Ct. overruled the precedent of "Beck," and altered
the PA. R. of Evid • t holding now, prior assaults are only admissible based on "Similarity," Can.
v. Christine, 129 A.3d 394 (2015), Op. incst. Rec. at #63 in direct contrast to "Beck."
However, the Chief Justice issued a scalding dissent in favor of reversal quoting,
"Appellant, and MISERD were the only witnesses to testify about who did what in appellants
cel Icon 6/8/09, MISERD testified that appellant ambushed him with the razor blade. Appellant
testified that MISEKO initiated the fight bytthrowing coffee at him and caning at him with
the razor blade. Clearly, the evidence of MISERD's assaultive character would persuade a jury
to believe appellant’s version of events. As such we cannot deem this to be harmless error,’"
prg. 3, 8 MAP 2015, in St. Ct. tec. at #63, Con. v. Christine, 129 A'.3d 394 (2315).
The Dist. erred in; "procedurally defaulting" this fully exhausted claim re the St’s "Ex-Post
Facto" application of an alteration to the R. of Evid. ex-post-facto, R&R, 26-28, the Dist. proc.
defaulted this claim for failure to relitigate the fully exhausted claim of being Hanjad the
♦

admission of the victimis prior assault charge under Ex-Post-Facto grounds on PCRA.
Because said relitigation of a fully exhausted claim under an "alternative

theory" or

"allegation," is expressly barred under the PA PCRA Act, 42 Pa. C.S. S 9544 (a)(2), See PA

26

EAeSupreme Ct. precedent, Can. v. Collins, 888 A.2d 564 (2005) Headnote 3, and at 585 Pa. 56,
"Section 9544(a)(2) at the most basic level, preventstthesrelitigation of the same legal
:ground under alternative legal theories or allegations."
* The issue couldn't have been raised under ineffectiveness of counsel either, because it
would've been impossible for appellate counsel to predict the PA Supreme Ct. would cannit and
Ex-Post-Facto violation in the future before such an outcane was ever indicated.
Procedurally defaulting this issue in.-this way has created a precedent that makes it impost
ible to raise an ex-post-facto violation by the high St.:Ct.. unless the Appellant can predict it
will happen in the future and raise it on Direct Appeal before it has ever been thought of.
* See SAYLCR’s dissent, pg. 1, prg. 1, the Chief Justice cannented that the PA Supreme Ct.
didn't even adopt the "evidentiary rule implemented by the trial ct.,M instead, they, "implanented
an entirely new countervailing bright line approach,” pg. 2, prg. 2—this is why this issue was
impossible to predict, the proper approach was what I did, raise the Ex-Post-Facto violation on
Reconsideration with the PA Supreme Ct. (the R&R even acknowledged I did this, ftnote 10, pg. 27).
The Dist. also erred, Id. R&R pg. 27, alleging the, "ex-post-facto clause doesn’t apply to
judicial decision making," where this is completely contrary to, Carmel 1 v. Texas, 529 U.S. 513,
522 (2000), holding where a decision alters the Rules of Evid • i "ex-post-facto" clause applies,
citing Calder v. Bell.
* Also see State law, Com. v. AU^iouse, 36 A.3d 163 (2012), at 183 & at Headnote 21, "ex-post
facto clause of U.S. Const. Art. 1, sec. 10, if it...(4) alters the legal rules of evidence."
The Dist. also erred in failing to address one aspect of this claim where on pgi 58, prg. 2,
of my Hab. at BCFV#1, I also challenged the evidentiary change itself of "Beck" under the 14th
Amendment of theJJ.S. Const., and I also reiterated this on pg. 16, prg. 1, line 8t9 of my
objections, stating in addition to the Ex-Post-Facto challenge, I was, "also challenging the
constitutionality of the actual decisi on as well," but this was never addressed.
If the evidentiary change itself to "Beck" violated St. law, then said claim is protected
under the 14th Amendment of the U.S. Const., and the 3rd Cir. Ct. of Appeals also failed to
grant a C.O.A. re this.
See pg. 2, of Chief Justice SAYLCR’s dissent, he cited that the court’s decision was con­
trary to Pa. R. Evid. 405 (b)(2), "sanctioning the admission of evid. of specific instances of
27

conduct to prove character trait of victim," where evid. would otherwise be inadmissible, he also
cites, Can. v. Vlouzaa, 53A.3d 738, 741 (2012).
I also presented in my Hab., Pa. R. Evid. 609r:and Com. v. Hoover, 107 A.3d 723 (2013), holdin ALL "criminal falsi" conviction axe admissible to show that character trait, therefore, to place
a limit based on "similarity” only on violent convictions, violated the 14th Amendment U.S. Const.
Failing to address this claim was cantrarytto Clisby v. Jones, 960 F.2d 925, 935-936 (11th
Cir. 1998) holding Dist. must address all claims.
Therefore, my rights were violated under the 5fh, 6th, and 14th Amendment of the U.S. Const.,
the 3rd Cir. U.S. Ct. of Appeals erred contrary to Miller-el v. Gockerll, 537 U.S. 322 (2003),by
failing to issue a C.O.A. and I request this honorable court grant Certiorari, (rights were also
violated under Art. 1, sec. 10, of U.S. Const.•» Ex-Post-Facto clause).
OCNCUISKN

These issues have presented not mere technicalities, but violations that severely prejudiced
the fairness of my trial, and have presented multiple, .as of yet, unanswered and unprecedented
questions,that are truly of an-exceptional importance to the public, and this case may also
warrant this court's providence to make correction based on error, therefore I respectfully ask
this petition for writ of Certiorari be granted.

28

